No. 20-5086

Iu The
Supreme Court of the United States

JOHNNY MACK SKETO CALHOUN, Petitioner,
v.

STATE OF FLORIDA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI

Certificate of Service
I, Carolyn M. Snurkowski, a member of the Bar of this Court, hereby certify
that on this 18th day of August, 2020, a copy of the Respondent’s Brief in Opposition
in the above entitled case was furnished by United States mail, postage prepaid, to
Stacy Biggart and Elizabeth Spiaggi, Capital Collateral Regional Counsel, 1004

DeSoto Park Drive, Tallahassee, Florida 32301.

Respectfully submitted,

 

M. SNURKOWSKI
Associate Deputy Attorney General
Florida Bar No. 158541
Counsel of Record

30
